No. 20-

IN THE

epupretne Court of tbe Ettitett Otateo
XAVIER DEMETRIUS PORTER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,366 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 16, 2020.

e. 4
Cohn Casey 1Mogan
Wilson-Epes Printing Co., Inc.

